<html>
<title> - TALES OF RESILIENCE: SMALL BUSINESS SURVIVAL IN THE RECESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     TALES OF RESILIENCE: SMALL BUSINESS SURVIVAL IN THE RECESSION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             JULY 25, 2012

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 112-081
              Available via the GPO Website: www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
76-487                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                      CHUCK FLEISCHMANN, Tennessee
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York

               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                     Barry Pineles, General Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

H. Todd Flemming, President/CEO, Infrasafe, Orlando, FL..........     3
Michael R. Minogue, Chairman, President & CEO, Abiomed, Danvers, 
  MA.............................................................     5
Elise Mitchell, APR, Fellow PRSA, President and CEO, Mitchell 
  Communications Group, Inc., Fayetteville, AR...................     6
Michael DiMarino, President, Linda Tool, Brooklyn, NY............     9

                                APPENDIX

Prepared Statements:
    H. Todd Flemming, President/CEO, Infrasafe, Orlando, FL......    21
    Michael R. Minogue, Chairman, President & CEO, Abiomed, 
      Danvers, MA................................................    26
    Elise Mitchell, APR, Fellow PRSA, President and CEO, Mitchell 
      Communications Group, Inc., Fayetteville, AR...............    32
    Michael DiMarino, President, Linda Tool, Brooklyn, NY........    36
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Materials for the Record:
    Belzona: Rumford Industrial Group Letter for the Record......    39
    AdvaMed Letter for the Record................................    42


     TALES OF RESILIENCE: SMALL BUSINESS SURVIVAL IN THE RECESSION

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 3:07 p.m., in Room 
2360, Rayburn House Office Building, Hon. Sam Graves [Chairman 
of the Committee] presiding.
    Present: Representatives Graves, Mulvaney, West, Hanna, 
Schilling, Velazquez, Chu, and Keating.
    Chairman Graves. Good afternoon. I want to call this 
hearing to order. And I apologize for the postponement. We had 
a series of votes that obviously took a long time, and we are 
sorry for that. But I want to thank all of our witnesses for 
being here today.
    You know, General George Patton once said, ``Success is how 
high you bounce after you hit bottom.'' I think this statement 
is particularly relevant in today's hearing on how small-
business owners have found success during what has been a very 
long and stubborn recession.
    The past few years have been very rocky, to put it mildly, 
and the economy has remained fragile and challenging for 
today's small-business owners. Over the course of this 
Congress, our Committee has heard from numerous small 
businesses who have described the challenges of access to 
capital, taxes, regulations, and general uncertainty about what 
is coming next. And while we keep hoping for signs of a lasting 
recovery, there continue to be very real difficulties. Small-
business optimism plummeted last month, and unemployment 
remains over 8 percent.
    Despite these troubling times and real economic setbacks, 
motivated entrepreneurs and resilient small businesses have 
managed to navigate the murky economic waters to find success 
and propel economic growth. Today we are looking forward to 
hearing some of the good news. Our witnesses will enlighten us 
with their perspectives on how they have prospered in spite of 
a stagnant economy. The American dream rightfully evokes images 
of America's small-business owners, and it will be their 
entrepreneurial spirit that will eventually allow us to bounce 
back.
    These are tough economic times, but today I want to commend 
our witnesses and all of America's small-business owners who 
realize that there is still a potential for success. These 
entrepreneurs have fought back against the pitfalls by adapting 
their business models, altering their marketing strategies, or 
employing new, innovative techniques to combat the recession, 
while continuing to bolster economic growth.
    And, again, I want to thank you for being here and taking 
the time.
    And I will turn to the Ranking Member Velazquez for her 
opening statement.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Since the financial crisis of 2008, this Committee has been 
regularly examining the strength of the small-business sector. 
In the past, we have shed light on credit conditions, consumer 
spending, and changes in employment.
    Throughout our hearings, it has become clear that small 
firms have reacted differently to the downturn and recovery 
that followed. For some, these difficulties have meant scaling 
back their operations and cost-cutting, but for others this 
period offered a chance to expand. Given their nimble nature, 
entrepreneurs and small companies have been more readily able 
to capitalize on these opportunities, creating prosperity in 
the face of adversity.
    We should not be surprised that some small businesses 
thrive in a tough economy. Throughout history, we have 
repeatedly heard the story of resolute entrepreneurs overcoming 
difficult circumstances to strengthen and rebuild our Nation. 
One might say, when the going gets tough, small businesses get 
going.
    This most recent recession and recovery have been no 
different. According to a Kauffman Foundation index, 
entrepreneurial activity has been higher for the 3 years since 
the recession ended in 2009 than for the 4 years prior. In 
2011, this meant that, on average, nearly 550,000 new 
businesses were created each month.
    Nonetheless, it is clear that many difficulties lie ahead. 
The sovereign debt situation in Europe continues to be a drag 
on the U.S. economy, particularly for firms that export. In 
addition, the fiscal cliff is creating uncertainty, thereby 
hampering investment and expansion. Together, these issues are 
weighing on small businesses and undermining consumer 
confidence, which hurts sales and revenue growth. This has 
resulted in a tentative overall economic picture.
    Yet, as they have before, small businesses remain a guiding 
light. The most recent ADP Employment Report showed that small 
firms created 93,000 jobs, accounting for more than 50 percent 
of all employment gains.
    In that regard, today's hearing is critically important. In 
every corner of our country, small businesses are driving our 
economy forward. Whether it is Kansas City, Missouri, or 
Brooklyn, New York, the picture is the same: Small firms are 
creating jobs and restoring hope in communities hard hit by the 
downturn.
    Today we will hear more of these inspiring success stories 
and what we can do to replicate them elsewhere. In that regard, 
I want to thank our small-business witnesses for testifying 
today and sharing their valuable insight with us.
    Thank you, and I yield back.
    Chairman Graves. Thank you.
    Our first witness is Todd Flemming, who is president and 
CEO of Infrasafe in Orlando, Florida. It is a global security 
technology integrator focused on serving both public- and 
private-sector organization with the highest-caliber security 
standards. He is testifying on behalf of the Small Business and 
Entrepreneurial Council. Mr. Flemming has over 20 years of 
broad-based management experience in the security industry, 
including business startups, design, marketing strategy, 
research development, and manufacturing.
    Thank you for being here today, Mr. Flemming.

 STATEMENTS OF H. TODD FLEMMING, PRESIDENT AND CEO, INFRASAFE, 
  INC., ORLANDO, FLORIDA, ON BEHALF OF THE SMALL BUSINESS AND 
 ENTREPRENEURSHIP COUNCIL; MICHAEL R. MINOGUE, CEO, PRESIDENT, 
AND CHAIRMAN OF THE BOARD, ABIOMED, DANVERS, MASSACHUSETTS, ON 
 BEHALF OF THE ADVANCED MEDICAL TECHNOLOGY ASSOCIATION; ELISE 
  MITCHELL, PRESIDENT AND CEO, MITCHELL COMMUNICATIONS GROUP, 
  INC., FAYETTEVILLE, ARKANSAS, ON BEHALF OF WOMEN IMPACTING 
  PUBLIC POLICY; AND MICHAEL DiMARINO, PRESIDENT, LINDA TOOL, 
                       BROOKLYN, NEW YORK

                 STATEMENT OF H. TODD FLEMMING

    Mr. Flemming. Thank you. Good afternoon, Chairman Graves, 
Ranking Member Velazquez, and members of the Committee. Thank 
you for hosting this important hearing today and for your 
invitation to provide testimony.
    My name is Todd Flemming, president and CEO of Infrasafe, 
headquartered in Orlando, Florida. Infrasafe is a global 
security technology integrator focused on serving organizations 
with the most stringent security requirements. Our mission is 
to provide our clients with unique, flexible, long-term 
solutions to manage both physical and information security.
    Veristream and Advantor Systems Corporation are 
subsidiaries of Infrasafe. Advantor provides a wide spectrum of 
security technology and services to the government, and 
Veristream is a software-as-a-service provider committed to 
protecting organizations from risks, focusing on visitor and 
vendor management, information security, and secure credential 
management and application.
    Infrasafe was founded in 2002 during one of the last 
recessions. In the middle of every difficulty lies an 
opportunity, Albert Einstein said. Fortunately, Infrasafe has 
experienced solid growth over the past 5 years. In 2007, at the 
beginning of the recession, we employed 57 people. As of this 
month, Infrasafe has a workforce totaling 177, and we expect to 
employ over 200 people by the end of August.
    The great recession followed a weak economic recovery and 
ongoing uncertainties that have made every business environment 
a very challenging one to navigate. I happen to be in an 
industry where demand continues to grow. However, it is very 
competitive for small players like Infrasafe. We operate in 
both government and private and commercial sectors, which also 
offers a unique set of challenges. Infrasafe has grown by 
staying focused, integrating technology to help us be more 
efficient, and carefully paying attention to the fundamentals 
that drive our bottom line.
    Most importantly with a small business, we have to stay 
focused. Small businesses like Infrasafe have limited 
resources, and we need to deliver value to the customer. Our 
company has found a niche and successfully delivered on our 
promises. We have accomplished this by delivering on our 
promise of powerful and effective technology backed by 
uncompromising service and support.
    We have also found that we need to remain flexible. Being 
small, we need to be able to look for opportunities that 
present themselves in front of us and make sure that our 
employees are able to enjoy a flexible work schedule and places 
that they work within our company.
    We have a global presence. Our client base spans four 
continents, reflecting our unique ability to meet diverse and 
challenging needs of business, government, and international 
and global markets.
    Probably most importantly, we stayed financially focused. 
Infrasafe, since its founding, focused on CPR: cash, profit, 
and revenue growth, in that order. We maintain a conservative 
balance sheet, given the economic uncertainties. As mentioned 
above, we strive to be more efficient. We domestically 
outsource, where we have a manufacturer in Cocoa Beach, 
Florida, who manufactures our printed circuit boards and a 
small metal house on the west coast of Florida that makes our 
chassis. We have embraced technology. We have used software as 
a service to help us reduce our costs of managing technology. 
And then we have also put together GPS systems to route our 
trucks more efficiently and allow us to responded to our 
customers more quickly.
    Importantly, human capital. Infrasafe employees are the 
foundation of our success. We continually to strive to build an 
environment that fosters creativity and support. Infrasafe 
works to instill a culture of excellence and manifest itself in 
the emphasis we placed on training and open communication. As 
noted above, we provide employees with cutting-edge technology 
tools to efficiently do their jobs.
    A lot of hard work and sleepless nights have gone into 
making Infrasafe a success. Obviously, Infrasafe is faced with 
day-to-day challenges like any other company. The economic 
environment certainly keeps us focused and more conservative 
when it comes to risks and potential new investments.
    The potential headwinds we see this year are key issues 
that the Committee has explored: for example, the uncertain tax 
environment for S corps and LLCs, the direction of the economy 
and ongoing uncertainty when it comes to cost and how this 
impacts our commercial expansion, as well as the uncertain 
Department of Defense environment under the looming shadow of 
sequestration.
    I thank you for the opportunity to provide this testimony 
today and look forward to your questions.
    Chairman Graves. Thank you, Mr. Flemming.
    Our next witness is Michael Minogue, chairman, president, 
and CEO of Abiomed in Danvers, Massachusetts. Abiomed is a 
pioneer in healthcare technology and innovation and is the only 
company with the Food and Drug Administration's approval for 
bridge to heart recovery. He is testifying on behalf of the 
Advanced Medical Technology Association. And since joining 
Abiomed in April 2004, Mr. Minogue has altered the corporate 
strategy and mission to create breakthrough heart-support 
technologies. Mr. Minogue is also a West Point graduate and 
proudly served in the United States Army.
    We thank you for your service. Welcome to the Small 
Business Committee, and we look forward to hearing your 
testimony.

                STATEMENT OF MICHAEL R. MINOGUE

    Mr. Minogue. Thank you.
    Chairman Graves, Ranking Member Velazquez, and members of 
the Committee, my name is Mike Minogue, and I am the chairman, 
president, and CEO of Abiomed.
    Abiomed is a small medical device company located in 
Danvers, Massachusetts. We make Impella, the world's smallest 
heart pump, which can be inserted through a small hole in the 
leg within minutes and does not require surgery. The Impella 
pump is actually above my fingers, and the motor is the gray 
bar, which sits inside the left ventricle.
    Our company mission is to recover hearts and save lives. I 
am very proud of this mission and consider our company very 
unique. As a company we have continued to focus on that mission 
even though our journey started more than 30 years ago when we 
set out to develop the artificial heart.
    Today, I come to represent AdvaMed, which is the industry 
association of all medical devices. The medical technology 
field is a success story for America, and I am proud to be in 
this industry, just as I was proud to serve in the military. 
Today, we serve patients, and that is the focus and part of the 
culture.
    As an industry, we directly employ over 400,000 people 
which, indirectly generates up to around 2 million Americans in 
the United States in the medical device space. And what the 
Committee may not know is that the majority of our industry is 
made up of small companies. More than 70 percent of the 
industry is made up of companies that have less than $100 
million in revenues and are not yet profitable.
    These companies, much like Abiomed, started with a 
scientist or a physician that wanted to have an idea that would 
help patients. And many of these technologies are where the 
breakthroughs come, and they are usually funded by venture 
capital that allows this innovation and process to continue.
    As the chairman, president and CEO for the last 9 years, I 
am acutely familiar with the challenges involved with running a 
small business. Abiomed was founded in 1981, and today we are 
the leader for percutaneous heart-support technologies. We have 
a broad continuum of products, that are outside the United 
States and going through the FDA path. And we have new products 
that are in development, as well.
    When we were founded, we had 10 people and we had no 
revenue. Today, we have 440 employees, and our revenues last 
year were $126 million. The company, in its 30-year process and 
journey, has just become profitable this last fiscal year.
    So, for us, the success is founded on three pillars. The 
first is innovation that addresses a patient need. The second 
is scientific evidence. And the third is a very familiar theme, 
hard work with execution.
    In order to succeed in the medical device space, you need 
to have success with innovation. And Abiomed did create this 
small heart pump, which is, as I have shown you, 1/100th the 
size of the heart but can do half to all of the cardiac output. 
These products are also smaller, so they are easier to put in. 
They are less expensive than traditional VADs, and they provide 
another offering to patients that many have no alternatives.
    We are constantly trying to improve the outcomes, and as 
the CEO, I savor the fact that our company has helped thousands 
of patients over the years go home with their own hearts.
    Secondly, in today's healthcare economics, we need to make 
sure we have an economic and clinical benefit for the patients. 
And our company has amassed a compelling collection of clinical 
and economic data showing the benefits, and, recently, we have 
incorporated it into the medical guidelines.
    The third pillar is hard work. The quality is there, but it 
is really about patient support 24 by 7. This is the founding 
principle of our culture.
    So these three pillars, along with being frugal, have 
allowed us to execute on our mission. This field is driven by 
innovation, but we need a strong and efficient FDA, and Abiomed 
supports the partnership with them so we can bring innovation 
to the market. While we haven't always been happy with the 
speed of progress, we know that the FDA leadership, 
specifically Dr. Jeff Shuren, is focused on helping small 
companies and bringing innovation to the country.
    My biggest concern has to do with the medical device tax 
which will be implemented this January. This tax will affect 
jobs. It will mix healthcare reform with tax policy. And it 
will be extra detrimental to companies that are not yet 
profitable and need every dollar to survive. In closing, this 
tax, as it represents to Abiomed, is more than the health care 
we spend for all employees, about 15 percent of our research 
and development dollars, and about 10 percent of our employee 
headcount.
    I am honored to be here today. I appreciate that you are 
looking at this. And I am very happy that the U.S. House of 
Representatives voted in early June to repeal the tax with 
bipartisan support. Most importantly, this tax will delay or 
eliminate innovations that will affect the quality of life for 
Americans.
    So thank you for allowing us to testify today, and we 
appreciate your interest.
    Chairman Graves. Thank you very much.
    Our next witness is Elise Mitchell, president and CEO of 
Mitchell Communications Group in Fayetteville, Arkansas. The 
company was established in 1995 as a sole proprietorship, and 
under Ms. Mitchell's leadership, her firm has known 
exponentially, more than 400 percent in the last 4 years, to 
become a top 50 national public relations firm. Ms. Mitchell 
has over 20 years' experience in public relations, and her firm 
works with an array of industry leaders. She is testifying 
today on behalf of Women Impacting Public Policy.
    Thank you for being here. Look forward to your testimony.

                  STATEMENT OF ELISE MITCHELL

    Ms. Mitchell. Thank you, Chairman.
    My name is Elise Mitchell, and I am the president and CEO 
of Mitchell Communications Group. I bring you good wishes from 
my company as well as from my community of northwest Arkansas, 
a thriving region with deep entrepreneurial roots.
    I am also here today on behalf of Women Impacting Public 
Policy, a national nonpartisan organization advocating on 
behalf of nearly 1 million women-owned businesses and 
representing 64 different business organizations. I am proud to 
represent all of these leaders.
    Established in 1995 as a sole proprietorship, our company 
has, indeed, become a top 50 public relations and strategic 
communications firm, working with some of the world's largest 
companies and best-known brands, including Wal-Mart, Hilton 
Hotels and Resorts, Tyson Foods, Procter & Gamble, Sam's Club, 
Southwestern Energy Company, and J.B. Hunt Transport. We are 
fortunate to do national and global work with these distinctive 
clients. We have successfully attracted top talent and 
developed new and innovative communication services. As a 
result, we have grown 445 percent in the last 4 years alone. We 
are very honored to have won numerous industry awards and twice 
been named to the Inc. 500/5000 list, as well as one of the 50 
fastest-growing woman-owned and -led companies in North 
America, as named by Women Presidents' Organization and 
American Express OPEN.
    I know other stories like ours but, unfortunately, not 
enough. In reality, many small-business owners have faced 
significant challenge in this recession. I am often asked how 
have we achieved this kind of growth in spite of a still-
uncertain economy. It is as simple as this: We have learned to 
look through the turn. And what do I mean by ``looking through 
the turn''? Well, I am an avid motorcycle rider, and I have 
built my business based on this concept, which is a fundamental 
principle of motorcycling that offers great insight. As you 
approach a turn, you must look where you want to go, rather 
than fixating on all of the potential hazards in the turn 
itself. The challenge comes in keeping your eyes focused on 
where you want to end up, while using your instincts and 
experience to adjust within the turn, all at a moment's notice.
    Inspired by this philosophy, I have used these core 
principles to help our company succeed. And there are several 
important lessons that we have learned along the way.
    First, stay nimble. When change happens, like it did in the 
fall of 2008, you have to be ready to adapt and respond. Small 
businesses are good at that, and it is definitely a competitive 
advantage. At Mitchell Communications, we have developed a 
flexible business model that has helped us scale up or down 
depending on our changing client needs and manage large-volume 
assignments even with short notice.
    Second, know how to take risk. I suppose risk is something 
that I am more comfortable with than most because I ride a 
motorcycle, but the trick is to balance risk and discipline to 
yield solid results. This starts by having a clear 
understanding of your value proposition and then knowing how to 
build upon that where it makes sense. For example, we invest 
heavily in talent and technology. And we have rolled out a 
number of new services to help us meet emerging client needs, 
and we are evaluating new opportunities all the time.
    Third, stand for something. During some of the darkest days 
of the recession, we came together as a company to write a 
common set of values: trust, open communication, service, 
results, and commitment. These values guided us when we needed 
them most, and they have helped us attract some of the best 
employees and clients that anyone could hope for.
    And, finally, don't try to go it alone. The best leaders 
understand the power of a team. It is the greatest privilege of 
my career to be the steward of Mitchell Communications Group. 
And I have learned that excellence attracts excellence, which 
means great people attract great clients. You can't have one 
without the other. It is my responsibility to continue creating 
a compelling culture so that amazing things happen when these 
two groups come together.
    It takes courage to be an entrepreneur, no doubt about 
that. And there is much that Washington can do to make the road 
smoother rather than more hazardous for us. Here are a few 
things you can do to help.
    First, fully consider small businesses in rulemaking. The 
decisions you make can have a huge impact on our ability to 
continue creating jobs and driving innovation.
    Second, facilitate greater access to capital, especially 
for the 8.3 million women-owned businesses in the U.S., and 
support the resources we need to not just survive but thrive. 
The SBA Women's Business Centers and the women-owned small-
business contracting program are a step in the right direction 
and will yield immense results.
    Third, reduce taxes. Many small businesses are S corps, 
which means the company's taxes are filed under the owner's 
personal tax return at the same time that we are trying to put 
profits back into the business to make payroll, purchase new 
equipment, or simply keep the lights on. Now is not the time to 
increase taxes on those of us who are making critical 
investments and creating new jobs.
    As I share our story with you today, I am reminded of the 
countless women-owned businesses and entrepreneurs of all kinds 
who are working tirelessly to fuel our economy. And when I 
think about them, their dreams and their determination inspire 
me, as I know they do you. Now, more than ever before, our 
country needs businesses and lawmakers who are willing to look 
through the turn, to fix their eyes on where we want this great 
country to end up, and to work together to get there.
    Thank you.
    Chairman Graves. Thank you.
    Ms. Velazquez. It is my pleasure to introduce Michael 
DiMarino, president of Linda Tool, a second-generation family 
business that manufacturers precision machine components and 
assemblies. He has worked at Linda Tool for 35 years and has 
grown the company from 3 to 28 employees. Linda Tool's state-
of-the-art manufacturing facility is located in the historic 
Red Hook neighborhood of Brooklyn, my district.
    Mr. DiMarino has participated in the launch of the Goldman 
Sachs 10,000 Small Businesses program as well as the cUBS 
mentorship program. Socially committed to the restoration of 
the community, Linda Tool is also participating in a number of 
green initiatives designed to promote a healthy, sustainable, 
and safe working environment for its employees.
    Welcome, sir.

                 STATEMENT OF MICHAEL DiMARINO

    Mr. DiMarino. Thank you.
    Chairman Graves and Ranking Member Velazquez and members of 
the Committee, thank you for inviting me here to share with you 
some of the things that I and my team of talented, dedicated 
employees at Linda Tool did to get through this challenging 
financial climate with greater capabilities and secured 
business through 2017.
    The last 4 years have meant sacrifice for all of us. 
Personally, I have been set back financially a great deal, but 
I was willing to alter my lifestyle in order to keep my people. 
I learned a long time ago that state-of-the-art manufacturing 
equipment is very expensive but the people who operate it are 
priceless. I handpick any team. No skaters. We all feel the 
same. Everyone pulls together, with a singular objective: to do 
the best job possible. I work hard; they work hard. And I pull 
for the people who pull for me.
    I always try to keep the lines of communications open and 
let the employees know the truth about what is going on. 
Although times were lean and I couldn't give raises, I did 
everything I could to keep my team together, without laying off 
a single person through the recession or since 1983. It meant 
sacrifices like cutting back to 32 hours for a good period of 
time. But no benefits were lost--no vacation pay, no health 
care.
    Still, the burden of the challenge couldn't be placed on 
their backs alone, so I looked for other ways I could support 
them by building the business in ways that would provide long-
term relief and security. How did we do that? We did the 
opposite of what you would expect. Instead of pulling back, we 
invested heavily in new equipment, technology, training, and 
marketing. I uncovered markets that offered business growth 
potential, but first I needed to get certain things so I could 
compete for those kinds of contracts. I took a big risk and 
tapped into my personal resources to fund the expansion of our 
manufacturing capabilities and our entrance into these new 
markets.
    From the outside looking in, you would not have known that 
there was a recession at Linda Tool. But there was, and we had 
to work fast and be smart about every next move we took. The 
key to our survival was close management of every detail, no 
matter how small, including the equipment we purchased, making 
sure to pay our vendors on time so they could stay in business, 
and the cross-training of our personnel, strengthening our 
customer relations to our greatest ability, networking and 
constant communications, and evaluations along the way.
    I reached out to local resources to help, too. I aligned 
myself with the Southwest Brooklyn Industrial Development 
Corporation, where I met Congresswoman Nydia Velazquez, one of 
Brooklyn's greatest advocates for small business. She helped us 
to acquire the cost-share grant that was instrumental in the 
installation of the Linda Tool green roof for environmental 
sustainability, keeping our costs manageable for a project like 
this. The SBIDC is a great organization, and it may be that 
everything I did leads back to them in some way.
    I also became deeply involved with New York City Small 
Business Services and their training grant program. I partnered 
with them to run the machinist training program at our facility 
in Red Hook, Brooklyn. Some of you may know how difficult it is 
to find skilled labor. By hosting the training program, I was 
able to observe the students and present them with an 
opportunity to apply for employment with us. We benefited by 
being able to select from a pool of trained, qualified 
applicants. Right now, we are talking with the SBS about an 
apprenticeship program.
    We also utilized the SBS's training grant program to 
achieve two industry certifications. We needed to open up 
opportunities in market areas we hadn't been qualified for in 
the past. For example, now we can compete for certain 
government contracts because of these certifications.
    But training not only opened up new business opportunities 
for us, it gave us a way of cutting costs by cross-training our 
people. So the guy who runs the lathe, for example, is also 
trained to run the mill. This way, we were able to reduce labor 
costs by utilizing the talents of our existing people.
    While we were busy with training and certifications, we had 
to start networking in order to make the right contacts. This 
led us to the Goldman Sachs 10,000 Small Businesses program--a 
tremendous program that can really help enhance a small 
business and the way they think and operate. We also joined the 
NTMA, National Tooling and Machining Association, so we could 
be connected with new business opportunities, and completed the 
UBS-Clinton Foundation mentorship program.
    These resources are valuable tools for a small business and 
something they should all look at. Now our people are working a 
lot of overtime again, making up for time they lost and then 
some. So, you see, it all balances itself in the end. We faced 
our challenges head-on, guided by inspiration and fueled by 
teamwork, giving what we could and giving up what we had to. 
Because of that, we continue now on a path that has enabled us 
to access long-term contracts that take us right through 2017 
and beyond.
    Linda Tool is blessed with great personnel. Just as we 
offer the highest quality in care to our customers, we also 
offer the same to our dedicated employees. I believe we are 
able to achieve the things we set out to achieve because of the 
people who work for us and with us. It is through our support 
of them that they are able to produce what is needed.
    Thank you again.
    Chairman Graves. Thank you all for your testimony.
    We will turn to Mr. West to start with questions.
    Mr. West. Thank you, Mr. Chairman and Ranking Member.
    And thanks for each and every one of you being here.
    And, Mr. Minogue, thank you also for your service. We share 
the passion of jumping out of airplanes.
    And, Ms. Mitchell, we share the passion of riding 
motorcycles. I have been riding since 1985 myself.
    So when you talk about, you know, looking into the turn 
whenever you go into that turn, my first question is this. You 
know, thinking strategically, what is your forecast, where do 
you see us going in the next 4 to 5 years if all things 
currently remain the same? And what type of adverse effects 
will that have upon your business, first and foremost?
    Ms. Mitchell. Well, we are very excited about the 
opportunities that we believe are before us, but, though, as 
you say, it depends upon what happens in the next 4 to 5 years.
    One of the things that we were very good at that we learned 
in the recession was how to spot emerging opportunity. And it 
is important for legislators to understand that small-business 
owners need to have certainty in the business environment. This 
allows us to plan better. It is hard for us to be able to look 
ahead and make business decisions. We want to take risk, and I 
think we are all pretty good at that, but we need as much 
certainty as we possibly can have.
    For instance, in the tax situation, we need to have some 
understanding of what is expected of us. And we want to be able 
to invest those dollars in creating jobs and innovation.
    Mr. Minogue. So, thank you for your question and your time 
today, as well.
    I think the biggest concern that we have is, there needs to 
be innovation in the space, and the two main drivers for 
innovation right now is to allow companies to not pay taxes on 
revenue when they are not yet profitable so they can continue 
to innovate, and, also, the American public to decide the 
balance between access to new technology versus elimination of 
all risk. And if the FDA and the industry knows what the terms 
are, we can go ahead and execute and have a win-win for all the 
American patients.
    Mr. Flemming. To reiterate Ms. Mitchell's point, I think 
certainty is important. Entrepreneurs are very good at adapting 
once they know the rules, but if you don't know the rules, it 
makes it pretty hard to figure out which direction you should 
head.
    You know, from our perspective, you know, every dollar that 
we pay in taxes is a dollar we don't invest in the business, 
because we are an LLC. So, typically, any dividends we make are 
to pay our taxes, and the rest stay in our business. Because, 
you know, frankly, that is my very best investment, is 
reinvestment in my business, not taking the money and putting 
it in, say, the stock market, where I have no control.
    Mr. West. Dividends taxes going to 42 percent would not be 
a good thing for you?
    Mr. Flemming. No. No. I think, you know, anyplace that we 
can at least have some certainty as to what, you know, the Tax 
Code looks like, that will help.
    And then a large component of our business, we do business 
with the Department of Defense. And I know a lot of small 
businesses have been already impacted----
    Mr. West. Are you nervous about sequestration?
    Mr. Flemming. Well, we have been, sort of, planning by 
diversifying our business for the past couple years, but I am 
nervous about that. So, a couple years ago, I fortified our 
balance sheet, retired all our debt, diversified our business 
in anticipation that our defense business could get soft.
    And we provide security products and services. It is 
something the Department of Defense under any circumstances 
needs. However, when they cut costs, you know, ultimately they 
come back to what is important, but sometimes they cut more 
with a sledgehammer than a scalpel, if you will. It is very 
hard for them.
    That being said, it is a very large Department of Defense 
budget. There will be a place for us there somewhere. We just 
have to, you know, stick to our knitting, stay focused, and 
provide the government the best products and services that we 
can.
    Mr. West. Next question. Today was the first time in the 
history of the Congress that we had a joint hearing between the 
Department of Defense and the Veterans Administration.
    So, once again, Ranger Minogue, if I can, talk to us 
about--you know, because that is one of the interesting topics, 
is how we transition these veterans coming out of Iraq and 
Afghanistan into the private sector. You know the unemployment 
situation we have right now with veterans.
    Can you give us, you know, your success story, enabling you 
to come out of, you know, boots and fatigues into suit and tie, 
be a successful president and CEO of a small business?
    Mr. Minogue. Congressman West, thank you for asking that 
question. The benefit I had was having a network to end up into 
the healthcare industry. And there are thousands of medical 
device executives, from the CEO of J&J to Abiomed, that have 
served their country.
    Recently we launched a program to identify all of the 
medical device companies that have veterans that are serving in 
the company. The program is called the medtech veterans 
program, or MVP. The program will inch off this fall within MVP 
bootcamp return heroes. This program will incorporate 
internships at these participating medtech companies, and then 
will also offer potential full-time employment for the veterans 
who decide they want to join the industry.
    The genesis of this idea evolved through conversation with 
some of the wounded warriors. When they would interview for 
internships, they would be told they just didn't have the 
qualifications required as compared to other candidates with 
work experience or college degrees. And some of these veterans 
had spent 2-plus years defending the Nation and then back in 
the hospitals for 12 months, trying to heal their bodies.
    So it is a great cause. I appreciate you asking the 
question. And we are very motivated to make the medical device 
field the home of all veterans.
    Mr. West. Thank you, Mr. Chairman. I yield back.
    Chairman Graves. Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. DiMarino, under the Economic Recovery Act that we 
passed, we included tax cuts for small businesses, such as 
bonus depreciation and expensing. Did you benefit from that?
    Mr. DiMarino. Yes, I have taken advantage of that the last 
2 years. We have invested heavily since 2009. We have purchased 
close to a million dollars' worth of new equipment.
    Ms. Velazquez. So, many reform proposals have included a 
corporate tax rate reduction that comes at the expense of tax 
expenditures designed to assist small firms. So my question to 
you is, how would a business like yours be impacted if they 
lost deductions and credits, like bonus depreciation or 
expensing?
    Mr. DiMarino. Oh, it would most definitely impact me. It 
could probably kill a purchase that is on the horizon. We are 
planning to purchase more equipment either this year or early 
next year, and if we didn't have that bonus depreciation, it 
could negate that purchase.
    Ms. Velazquez. So do you believe that it is fair to 
eliminate them in order to pay for the corporate tax rate 
reduction that would not benefit small firms?
    Mr. DiMarino. I need to buy my equipment.
    Ms. Velazquez. Uh-huh.
    Mr. DiMarino. I will have to be a little selfish here. If 
the burden could be shared a little bit to balance it, if you 
could, between corporations and small business, I don't know if 
that is possible. But I think it would put a hurt on the small 
business more than a larger corporation.
    Ms. Velazquez. Yeah. This Committee is, you know--we are 
here to advocate for small businesses in America.
    Mr. Minogue, we know that cash flow is a challenge for 
businesses of all sizes, especially small firms. In what ways 
has the Tax Code made it more challenging to compete in a 
global market and a struggling economy?
    Mr. Minogue. So, Congresswoman Velazquez, the cash flow 
from the basic level is, we need it in order to invest in the 
new products to get through our clinical studies.
    Ms. Velazquez. Uh-huh.
    Mr. Minogue. In our case, we have developed a net operating 
loss credit of around $180 million over the last 30 years. The 
biggest challenge to our cash flow moving forward as we 
generate cash is that we will be paying some of that cash back 
that we could be reinvesting into new jobs, new products, or 
new studies. And none of this was allocated or there 3 years 
ago when we set a strategic plan in order to become profitable.
    So it goes back to the same theme of consistency and 
reinvesting our dollars where we think is the best opportunity 
for the company.
    Ms. Velazquez. So, besides lowering tax rates, what 
specific changes to tax rules could better help small 
businesses have better access to cash?
    Mr. Flemming. If I may?
    Ms. Velazquez. Yes.
    Mr. Flemming. Simplification. It is very expensive for us 
to prepare our tax returns. Between the local, State, and 
Federal preparation of tax returns, it takes an inordinate 
amount of time and money. And we really have to have quite a 
few people do it. Even the smallest businesses, it is well past 
their level of expertise, unless they are an accounting firm, 
to be able to do their own tax returns.
    And the complexity of the Tax Code is daunting. In some 
cases, you can't even--you may not be figuring out what 
deductions are there that are for you. And it is just a 
constant struggle to make sure that you have your tax returns 
prepared correctly.
    Ms. Velazquez. In terms of sequestration, I know that you 
have Federal contracts, right?
    Mr. Flemming. Yes.
    Ms. Velazquez. What is your concern right now, and how is 
the uncertainty impacting your company?
    Mr. Flemming. It is more, the uncertainty is probably the 
biggest thing. What we see is, in the Department of Defense, 
since they are not sure of what levels of funding they will be 
receiving and what cuts they will be required to make, 
particularly when they have moved some of their projects to the 
right and haven't contracted those on a more predictable basis.
    We continually make investment, that we have funded the 
development of our own products, but we don't know for certain 
that there is going to be a market for some of those products, 
depending on what happens with respect to, you know, the 
defense programs that are funded and those that aren't funded.
    Ms. Velazquez. For existing contracts that carry into next 
year, have your procurement officers talked to you about what 
the sequestration could mean for these contracts?
    Mr. Flemming. Yes. And what we do is prepare scenarios 
based on, you know, what could potentially happen. And severe 
cuts to some of the programs may require us to reduce some of 
the staff associated with those particular contracts.
    Because our contracts are very, very small, we prefer to be 
able to--if one isn't funded, to move employees from one 
contract to another contract. Because, in our case, our 
contracts sometimes are $1,000, and, you know, our average 
contract size is less than $100,000. So we can be a little bit 
flexible that way.
    Ms. Velazquez. Thank you.
    Thank you, Mr. Chairman.
    Chairman Graves. Mr. Hanna.
    Mr. Hanna. Thank you, Mr. Chairman.
    Mr. Minogue, you said that companies shouldn't have to--and 
this is not a value judgment, just a question--you said that 
companies shouldn't have to pay taxes until they are 
profitable. Can you give me a circumstance where they would 
have to pay taxes if they weren't profitable? I mean, isn't----
    Mr. Minogue. I can't think of any.
    Mr. Hanna. That is why I was curious when you said that. It 
struck me as odd. My understanding of the Tax Code is that when 
you make a profit you pay a tax, and not until.
    Mr. Flemming, in terms of an issue like repatriation, you 
represent--both of you represent multinationals, especially 
you, Mr. Minogue. Do you hear any talk about the tax rates that 
we have for repatriation in terms of multinationals and how it 
affects the businesses that you represent?
    Mr. Minogue. We are still a small company relative to 
managing our cash in and out of the country, and just achieving 
profitability. So, in the last couple years we have really 
focused on our U.S. operations, our U.S. market, and our U.S. 
clinical studies to remain frugal. As part of that, we also 
increased our manufacturing at our U.S. facility in 
Massachusetts as well as some of our facilities in Germany.
    But the majority of our revenue and our operations carry 
the U.S.----
    Mr. Hanna. So that is really not an issue for you.
    Mr. Minogue. It is not. But, obviously, in the medical 
device field, it does impact, because there are countries, like 
Ireland, where they have a lower tax rate. And even though we 
are a small company becoming a teenager in the big market of 
J&J and Medtronic, we are getting calls, we are having 
different types of government agencies around the world contact 
us directly, offering us perks and credits and funds if we 
would come to their country to manufacture. We have declined, 
but certainly there is a lot of interest to bring American 
companies, especially in med-tech, to bring them and lure them 
overseas.
    Mr. Hanna. Anecdotally, I have just heard so many stories 
from corporations with large amounts of cash that simply don't 
want to bring to it this country to buy a company here or 
invest here because we have expectations that we tax it at the 
regular rates when they do that, which means they pay twice.
    Mr. Minogue. Correct.
    Mr. Hanna. Could I ask you about--anyone about, do you have 
difficulty--I mean, you are in, some of you, highly technical 
fields. A great deal of education required to work for you. Do 
you have trouble finding people who are qualified at the level 
you need them to be? And is STEM an issue for anyone?
    Mr. Flemming. In our case, because we do work for the U.S. 
Department of Defense, we hire people who are capable of 
obtaining a United States security clearance. So we hire U.S. 
engineers to do our software and our design.
    Interestingly enough, even in the level of unemployment, it 
takes us quite some time to find an engineer. Our office sits 
adjacent to the University of Central Florida, and we intern. 
But sometimes we can post a position and it may take us 6 
months to find a qualified engineer to be able to do the work. 
So my feeling is, in our country we need to produce more 
engineers.
    Mr. Hanna. Interesting.
    How do you feel about the future as you watch this 
Congress? And, Ms. Mitchell, I mean, you are in the ad 
business; you must have some quip available. What does all of 
this make you think, when you are trying out there to make a 
living and we sit here and--go ahead.
    Ms. Mitchell. Well, I would say this, that most of us who 
are small-business owners are entrepreneurs because we love it. 
We have a great passion for building something from nothing, 
and it is exciting for us to be able to see value come about 
from the work of our hands and to bring teams together.
    There are some really great resources that are available to 
small businesses, both public and private. The SBA does a great 
job of providing resources to small businesses. And in the 
private sector, there are a number of networks and 
organizations that have done a lot to accelerate growth in new 
business. And, for instance, in our industry, we are very 
active in the Public Relations Society of America; the Council 
of PR Firms; of course, today I am representing Women Impacting 
Public Policy; and the Women Presidents' Organizations. These 
are examples of organizations that are doing a lot to help 
small businesses grow.
    And so I think it is a great opportunity for lawmakers to 
see that working together produces great results. And when you 
look at entrepreneurs, you don't have to look very far to see 
the passion, the drive, and the pure grit it takes to make it. 
And I would hope that Washington would be inspired by a lot of 
the stories that are out there today by small-business owners 
who are doing all that they can to drive this economy forward.
    Mr. Hanna. Well, thank you very much.
    My time has expired, Mr. Chairman.
    Chairman Graves. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    You mentioned uncertainty, a lot of you did, and it is 
clearly there. There is a whole set of tax exemptions and 
extensions set to expire at the end of the calendar year. Can 
you just comment on them? And I would ask you to just be 
specific about which ones you think are the most important and 
how they will affect future decisions for you.
    Anyone?
    Mr. Minogue. So, I will start, Congressman Keating.
    The medical device tax is going to start on January 1st. 
The details of it through the IRS have not been clarified. Our 
fiscal year ends at the end of March, so we have to close the 
books, report our numbers, be audited through our agency and to 
file our final financials.
    Therefore, we have a logistics concern of, what this tax is 
going to look like? How are we going to account for it? It will 
be the first million dollars out of our profits for that 
quarter. And then, of course, we are going to spend a lot of 
time and energy trying to figure out how do we close the books 
and be accurate and be in compliance.
    Mr. Keating. I share that concern, as well, and I have 
supported making that change. We have 45,000 direct service 
jobs in Massachusetts that, you know, clearly fall into your 
particular industry.
    Just another quick question, if people weren't going to do 
that. You know, one of my Subcommittees is Cybersecurity. I am 
just curious, particularly with a couple of your companies, 
what needs you see there, what some of the challenges are, what 
some of the landscape might be, you know, because of piracy and 
other threats that might exist.
    Mr. Flemming.
    Mr. Flemming. Well, the level of cybersecurity-related 
attacks is increasing, as you know, with a great frequency. 
Anything that we can do to improve our posture, because, you 
know, right now, you know, we are constantly on alert, 
especially with our software-as-a-service business, which is 
more a private-sector business where we serve large Fortune 500 
companies and the like.
    So, you know, I am not sure that I can, off the top of my 
head, come up with a solution that the government can give us 
for that. I think a lot of it is we need to exercise 
substantially more vigilance across the board, especially as it 
relates to our critical infrastructure.
    I mean, I think there is a lot to be said, especially, for 
embedded devices that control critical systems being 
manufactured in the United States. As we have more control over 
the components that go in there and potentially the overall 
security, the less opportunity to potentially have backdoors 
and those kinds of things installed in them.
    Mr. Keating. Does anyone else want to comment on that?
    Mr. Minogue. One is, obviously we are careful about what we 
put up and what we post.
    Another concern is just that the Freedom of Information 
Act, if it is not implemented correctly, could allow for the 
openness and exchange of confidential information to government 
agencies, such as the FDA.
    So we have policies in place, and we will continue to 
monitor that to make sure that we keep proprietary information 
confidential.
    Mr. Keating. Great. Well, I want to thank all of you.
    And, Mr. DiMarino, I want to compliment you on not having 
any layoffs. And, certainly, I think, going forward, you know, 
your probably most valuable resources and assets are your 
employees. Can you tell us what that effect of your not having 
layoffs and trying to work with them has had going forward?
    Mr. DiMarino. Well, I mean, it has brought my tremendously 
loyalty with my people. They are not even a thought--when 
things are tough, I don't think about them. I have run a 
nightshift for 15 years now, and I have other friends in the 
business that run a nightshift; they are worried about it. And 
I don't think I have gotten six phone calls in 15 years from my 
guys.
    Mr. Keating. Right.
    Mr. DiMarino. It is just, you know, they do their work. 
Everybody is there to work. They all pull together.
    I have one gentleman, it is the only job he has ever had is 
with me. And his daughter just graduated high school and got a 
4-year ride to Williams, which is pretty good. And that puts it 
all together for me.
    Mr. Keating. Great.
    I would note, too, that in all of your opening statements 
that was a common thread, the team you put together and the 
loyalty that you have as a group. And I think that is why you 
are sitting there. So I want to thank you all for that effort.
    I yield back.
    Chairman Graves. Mr. Schilling.
    Mr. Schilling. Thank you, Chairman.
    Thank you all for coming. I apologize for being late. I had 
three meetings at the same time.
    Just a little background. I am a small-business owner 
myself. My dad and I, 16 years ago, we took a building that was 
pretty much vacant and we literally with our own hands built it 
from the ground up. And it has been pretty successful for us. 
It has been a lot of hard work, 60 to 80 hours per week. Now my 
children are running it for me, and thank goodness it is still 
up and going.
    But you folks have been somewhat successful in keeping 
people on the payroll. Can you just kind of walk me through--
and maybe you have already discussed this--your decision to 
expand your businesses in the economic climate that we are in 
today?
    Ms. Mitchell. I would be happy to speak to that.
    We are also in a situation where talent is our very best 
asset. And the war for talent is real. We want to be able to 
attract the very best people that we can, and so it is 
important for us to be able to find good opportunities.
    And that was one of the things that we learned during the 
tough times that we faced, is that you have to stay very nimble 
as a small business. And, again, that is why I said we do it 
really well, but you have to be able to evaluate opportunity 
and know how to do it.
    For example, there are a lot of things in our field that we 
can move into, and we have, such as digital and social media, 
video services and creative-type services, training. These are 
things that we have added on to our core business model in 
order to be able to expand our growth.
    But not everything is the best opportunity. So you have to 
become very good at looking and knowing, what do I do well? 
Where can I win? That is where I am going to lean into 
opportunity. That is another motorcycling analogy, which is, 
you really want to be very careful about where you risk because 
you don't have a lot of opportunity to fail when you are a 
small business.
    So I think that is something that we actually are all very 
good at, is knowing how to understand what those opportunities 
are and then having the courage to invest in that opportunity 
and really make it pay off for your company.
    Mr. Schilling. Very good.
    You know, the common thread that I do like--and I fully 
understand what you are talking about--is the teamwork. And 
then if you get one person out of sync, it is a problem, and 
that doesn't work too well on a Friday night at a pizzeria.
    Mr. Minogue, you mentioned the medical device tax and the 
impact it would have on your business. I have in our district 
Cook Medical Supply in Canton, Illinois. And their mayor is 
very concerned with the medical device tax that is up and 
coming, if it is not repealed, how it is going to adversely 
affect the new business that they just built. And the sad part 
to this is, I visited with some of the leadership folks in the 
company, and Mr. Cook, before he died, his idea was to build 
one of these medical device buildings all over the United 
States of America. And since this medical device tax has been 
put into play, they are looking at halting that. Each one of 
these facilities is roughly anywhere from $10 million to $20 
million of new building, plus the jobs that it brings along 
with that.
    Can you tell me a little bit more about how this will 
affect your company, if you could, sir?
    Mr. Minogue. Sure. So the medical device tax is about $30 
billion for the industry over 10 years. That is about a third 
of all research spent by the entire industry, so it is very 
significant. It is estimated it is going to cost us around 
50,000 jobs in the industry based purely on the tax, if you 
look at the numbers. Specific to our company, it is a prettying 
significant hit. It is, again, about 15 percent of our 
research, 10 percent of our employees. It is more than--it is 
almost double our healthcare costs, and it goes up every year.
    To prepare for this impact, we are not investing in our 
legacy products, and not expanding outside of the U.S. as 
quickly as we might. We might delay a newer product or delay a 
submission of a study a little longer. We will continue to 
grow, but we are going to be very frugal in how we do it. And 
we are going to invest like crazy in the products that have the 
biggest impact to patients, that also show the clinical value 
and, in today's world, an economic benefit.
    Mr. Schilling. Very good.
    With that, I yield back.
    Chairman Graves. Just out of curiosity--and this question 
is for each of you--are you optimistic about the U.S. economy? 
And what are you worried about it, if you are concerned?
    Mr. Flemming.
    Mr. Flemming. As an entrepreneur, I am an optimist, but I 
am very cautious going forward as to the economy. I think that, 
you know, we are starting to see the--even though the recovery 
didn't feel very good because it was very slow, we are at the 
other side of the business cycle. And so I think we have some 
tough years ahead of us.
    That being said, you know, there is a pony in there 
somewhere. I think there is some opportunity if you look for 
it.
    Mr. Minogue. I am optimistic in Abiomed because of our 
innovation and impact to patients, and I know we will continue 
to adapt and execute.
    As far as the economy, I am not pessimistic, I am not 
overly optimistic. I think that there are some decisions to be 
made, and the country has to continue to also adapt and 
execute.
    Chairman Graves. Ms. Mitchell.
    Ms. Mitchell. I am an optimist, too. I wouldn't be in the 
business I am in as an entrepreneur if I didn't believe that 
there was always opportunity. I do think the American Dream is 
alive and well, and I love to see people take a chance. And I 
think what is before us now is an opportunity to inspire the 
next generation that comes behind us. We need to do a good job 
of demonstrating that there is a reason for them to take a risk 
and that that risk is rewarded.
    And I would encourage Washington to do all that it can to 
create an environment that is conducive for small businesses to 
be willing to go out there and make investment. Because we know 
these are the jobs that are being created. Small businesses 
hire and provide jobs for more than half the private sector, 
and that is a really important thing for us to remember as we 
want to be able to see this economic engine continue to drive 
forward.
    So I am very optimistic, but I think it will take all of us 
having our wits about us to make the most of opportunities that 
we have.
    Mr. DiMarino. I am optimistic also, but the uncertainty 
leads to anxiety. I have a great many opportunities because of 
the reduced manufacturing capacity of the last 4 years in the 
country, which on the outside looking in sounds great. The 
problem with that is, as time goes by, less people are in the 
industry; you lose the opportunity to grow new skilled talent. 
So, although I have good opportunities to produce, I can't. So 
I am stuck.
    To hire people and organically grow them all the time, you 
can't grow fast enough with that. It takes time, a lot of time, 
to groom somebody and teach them the skills they need in this 
business, whereas years ago you had a lot of shops, a lot of 
manufacturing facilities, and people changed jobs, they 
relocated. So when you got somebody, they hit the ground 
running. To bring somebody in new and train them, I don't gain 
an employee, I lose half of the good employee training the new 
one. So it stalls your growth.
    Chairman Graves. Mr. Mulvaney.
    Mr. Mulvaney. Very briefly, at the risk of asking a 
question that has already been asked, if you would wave a magic 
wand, all of you, to each of you, and we could do one thing in 
the next 6 months to allow this optimism to come to fruition 
and turn into success, one thing, what would it be?
    And that is the same question to each of you.
    Mr. Flemming. I would say come together and solve some of 
the problems that have resulted in the uncertainty, you know, 
sooner rather than later.
    Mr. Mulvaney. But give me--there is a lot of different 
uncertainty. I am looking for, if there is one thing that you 
could look back and say, ``Look, at least Congress tried; they 
did this one thing, and it helped me in my business,'' what 
would that one thing be?
    Mr. Flemming. Well, they are related, you know: simplify 
the Tax Code and resolve the sequestration issue.
    Mr. Minogue. I would say eliminate the medical device tax.
    Ms. Mitchell. Certainty in the Tax Code, because when we 
have certainty, we can plan much more effectively.
    Mr. DiMarino. Resolve the Tax Code, same.
    Mr. Mulvaney. Mr. Chairman, I apologize for my late 
arrival. I don't want to ask questions that have already been 
answered, so I will yield back the balance of my time.
    Chairman Graves. Well, I want to thank each of you for 
coming. Obviously, you are all optimists or you wouldn't be 
entrepreneurs, but we very much appreciate your testimony. We 
can learn something from every one of you. This has been a 
great hearing. And there are companies out there that are 
figuring out how to overcome a lot of adversity and make it 
work, and I applaud all of you for that.
    So, with that, I would ask unanimous consent that Members 
have 5 legislative days to submit statements and supporting 
materials for the record.
    Without objection, that is so ordered.
    This hearing is now adjourned.
    [Whereupon, at 4:06 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6487A.001
    
    [GRAPHIC] [TIFF OMITTED] T6487A.002
    
    [GRAPHIC] [TIFF OMITTED] T6487A.003
    
    [GRAPHIC] [TIFF OMITTED] T6487A.004
    
    [GRAPHIC] [TIFF OMITTED] T6487A.005
    
    [GRAPHIC] [TIFF OMITTED] T6487A.006
    
    [GRAPHIC] [TIFF OMITTED] T6487A.007
    
    [GRAPHIC] [TIFF OMITTED] T6487A.008
    
    [GRAPHIC] [TIFF OMITTED] T6487A.009
    
    [GRAPHIC] [TIFF OMITTED] T6487A.010
    
    [GRAPHIC] [TIFF OMITTED] T6487A.011
    
    [GRAPHIC] [TIFF OMITTED] T6487A.012
    
    [GRAPHIC] [TIFF OMITTED] T6487A.013
    
    [GRAPHIC] [TIFF OMITTED] T6487A.014
    
    [GRAPHIC] [TIFF OMITTED] T6487A.015
    
    [GRAPHIC] [TIFF OMITTED] T6487A.016
    
    [GRAPHIC] [TIFF OMITTED] T6487A.017
    
    [GRAPHIC] [TIFF OMITTED] T6487A.018
    
    [GRAPHIC] [TIFF OMITTED] T6487A.019
    
    [GRAPHIC] [TIFF OMITTED] T6487A.020
    
    [GRAPHIC] [TIFF OMITTED] T6487A.021
    
    [GRAPHIC] [TIFF OMITTED] T6487A.022
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
